     Department of Homeland Security

     ��������������������������



   The Town of San Anselmo, California, Generally 

         Followed Regulations for Spending 

          FEMA Public Assistance Funds





OIG-14-24-D                            December 2013

                                   OFFICE OF INSPECTOR GENERAL
                                        Department of 11omeland Security
                                         Wm~hioglon.   f'}(: 2f)52~ / \V\\<W.t.'lig.dh~.~()V



                                                 DEC 3 0 2013

MEMORANDUM FOR:




FROM:

                                    Office o Emergency Management Oversight

SUBJECT:                            The Town of San Anselmo, California, Generally Followed
                                    Regulations for Spending FEMA Public Assistance Funds
                                    FEMA Disaster Number 1628-DR-CA
                                    Audit Report Number OJG-14-24-D



We audited Federal Emergency Management Agency (FEMA) Public Assistance grant funds
awarded to the Town of San Anselmo, California (Town), Public Assistance Identification
Number 041-64434-00. Our audit objective was to determine whether the Town accounted for
and expended FEMA Public Assistance grant funds according to Federal regulations and FEMA
guidelines.

The California Governor's Office of Emergency Services (State), a FEMA grantee, awarded the
Town $2,003,218 for costs resulting from storms, flooding, debris flows, and mudslides from
December 17,2005, through January 3, 2006. 1 The award provided 75 percent FEMA funding
for six large projects and three small projects? At the time of our audit, the Town had
completed work and had submitted a final claim for all projects.

This is the second and final phase of our audit of the Town's award. In the first phase, we
audited one large project for which the Town claimed about $1.6 million-Project 3625,
Category E work (Buildings and Equipment). We issued an interim audit report that questioned
the Town's entire claim for the project as unsupported or ineligible costs because the Town's




1
  At the time of this disaster, the grantee's name was the Ge>vernor's Ot'r.ce of Emergency Service~ (OES).
However, OES became part of Cal EMA fre>m January 1, 2009, to June 30, 2013-including during the time of our
fieldwork. As of July 1, 2013, Cal EMA transitioned back to the Calife>rnia Ge>vernor's Offic" offmergency Services
(State).
2
  Federal regulations in effect at the time of the disaster set the large project thrcshe>ld at SS 7,500.
                                    OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security


   records were insufficient to provide an audit trail to support the costs.3 We recommended to
   FEMA that the Town resubmit its claim with adequate documentation to support the costs.
   FEMA reviewed the Town’s subsequent claim and disallowed approximately $500,000 because
   of inadequate documentation. We concurred with FEMA’s final determination and corrective
   action.

   This second and final phase of the audit covers the period from December 17, 2005, to
   October 23, 2013. We reviewed the remaining five large projects and one of the three small
   projects. The awards for these projects totaled $1,238,233, for which the Town claimed
   $1,431,486. We audited the $1,431,486 the Town claimed (see Exhibit, Schedule of Projects
   Audited and Questioned Costs).

   We conducted this phase of the performance audit between June and October 2013, pursuant
   to the InspectorfGeneralfActfoff1978, as amended, and according to generally accepted
   government auditing standards. Those standards require that we plan and perform the audit
   to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
   conclusions based upon our audit objective. We believe that the evidence obtained provides a
   reasonable basis for our findings and conclusions based upon our audit objective. We
   conducted this audit applying the statutes, regulations, and FEMA policies and guidelines in
   effect at the time of the disaster.

   We interviewed FEMA, State, and Town officials; reviewed judgmentally selected project costs
   (generally based on dollar value), and performed other procedures considered necessary to
   accomplish our objective. We did not assess the adequacy of the Town’s internal controls
   applicable to grant activities because it was not necessary to accomplish our audit objective.
   However, we did gain an understanding of the Town’s method of accounting for disaster-
   related costs and its procurement policies and procedures.
    

                                             BACKGROUND 

                                                     

   The Town of San Anselmo is a small community in Marin County, located approximately
   19 miles north of San Francisco, California. The Town covers less than 3 square miles, and lies
   within the 28-square-mile Ross Valley Watershed that flows into San Francisco Bay. The
   principal waterway of the Town's portion of the watershed is the San Anselmo Creek. The
   disaster caused the San Anselmo Creek to overflow and flood the Town of San Anselmo,
   damaging Town facilities. Figure 1 shows the inundation caused by the flooding event to a
   section of downtown San Anselmo, California.



   3
    OIG Report Number DS-13-02, ThefTownfoffSanfAnselmo,fCalifornia,fDidfNotfProperlyfAccountfforfandfExpendf
   FEMA’sfPublicfAssistancefGrantfFunds, December 27, 2012.

www.oig.dhs.gov                                     2                                          OIG-14-24-D
                                      OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security




                  Figure 1. Town of San Anselmo, California, downtown area during the disaster event.

                                      Source: Town of San Anselmo, July 25, 2012




                                                RESULTS OF AUDIT

   The Town generally accounted for and expended FEMA Public Assistance grant funds
   according to Federal regulations and FEMA guidelines for the six projects we reviewed in this
   phase of the audit (five large and one small). Of the $1,431,486 the Town claimed for these
   projects, $26,100 was ineligible. Additionally, based on the results of both phases of this audit,
   the State should have performed a more thorough review of costs the Town claimed.

   Finding A: Ineligible Costs

   The Town’s claim for two projects included $26,100 of ineligible costs consisting of $19,807 in
   duplicate benefits and $6,293 unauthorized costs outside the project scopes of work (see table 1
   below).

                                        Table 1. Ineligible Costs by Project
             Project No.                           Item Charged                             Amount
                3739           911 Phone System–State funded project                        $19,807
                3739           Utilities–Standard operating costs                             2,549
                3739           Gardening–Standard facility maintenance                        1,328
                3627           Repairs associated with a different facility                   2,416
                                                        Total                               $26,100


www.oig.dhs.gov                                        3                                          OIG-14-24-D
                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


   The Town claimed $19,807 under Project 3739 for installing a 911 system that the State funded.
   Section 312(a) of the RobertfT.fStaffordfDisasterfRelieffandfEmergencyfAssistance Act prohibits
   such duplicate benefits, stating that an entity cannot receive Federal financial assistance for
   any loss for which it has already received such financial assistance from any other source.

   The Town also claimed $6,293 for three unauthorized items of cost under Projects 3627 and
   3739 that were outside the FEMA-approved scope of work. Applicable Federal cost principles
   at 2 CFR Part 225, Appendix A, C.1.c, require costs to be authorized or not prohibited under
   State or local law. One item of cost for $2,416 was for repairs to a facility different from the
   one FEMA named in the project worksheet. The other two items were expenses necessary for
   operating a temporary facility (gardening and utilities). According to FEMA’s PublicfAssistancef
   Guide (FEMA 322, October 1999, p. 58), “FEMA does not provide funds for increased operating
   expenses resulting from a disaster.”

   Therefore, we question $26,100 the Town included in the costs it claimed for Projects 3627 and
   3739, and FEMA should disallow these costs. The Town and State officials concurred with the
   finding, and during our exit meeting, State officials requested the Town to submit additional
   information regarding the State-funded 911 system.

   Finding B: Grantee Management Oversight

   The State should have performed a more thorough review of costs the Town claimed,
   particularly for Project 3625 that we reviewed in the first phase of this audit. According to its
   State Administrative Plan for 2005–2006, the State, as the grantee, must account for grant funds
   in accordance with State and Federal requirements. Specifically, the State must ensure that the
   subgrantee provides the necessary data to determine reasonableness of costs and eligibility for
   reimbursement.

   During our assessment of Project 3625, we noted that the State’s review of the Town’s claim did
   not identify as many ineligible costs as FEMA’s review. The State determined that $101,547, or
   6.3 percent, of the $1,599,777 the Town claimed for Project 3625 was ineligible. In contrast,
   FEMA performed a more thorough review and determined that $474,987, or 29.7 percent, was
   ineligible. The difference in the results of these two reviews indicates that the State should have
   more carefully reviewed the costs the Town claimed.

   In conclusion, the State is accountable for grant management and responsible for monitoring
   and reviewing costs to ensure they are eligible and supported. Therefore, the State should take
   steps to improve its grant management procedures, and provide FEMA better assurance on the
   eligibility of costs that subgrantees claim.

   State officials did not dispute the finding.


www.oig.dhs.gov                                   4                                     OIG-14-24-D
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


                                            RECOMMENDATIONS

   We recommend that the Regional Administrator, FEMA Region IX:

   Recommendation #1: Disallow $26,100 (Federal share $19,575) of ineligible charges to
   Projects 3627 and 3739 (finding A).

   Recommendation #2: Reemphasize to the State its grantee responsibilities and the need to
   provide FEMA better assurance on the eligibility of costs that subgrantees claim (finding B).


                     DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

   We discussed the results of our audit with Town officials during our audit and included their
   comments in this report, as appropriate. We provided a discussion draft to Town and State
   officials on October 18, 2013, and to FEMA officials on October 29, 2013. We discussed the
   draft at an exit conference with Town and State officials on October 23, 2013, and with FEMA
   officials on November 6, 2013. All officials generally agreed with the findings and
   recommendations.

   Within 90 days of the date of this memorandum, please provide our office with a written
   response that includes your (1) agreement or disagreement, (2) corrective action plan, and
   (3) target completion date for each recommendation. Also, please include the contact
   information of responsible parties and any other supporting documentation necessary to
   inform us about the status of the recommendations. Until we receive and evaluate your
   response, we will consider the recommendations open and unresolved.

   Consistent with our responsibility under the InspectorfGeneralfAct, we will provide copies of
   our report to appropriate congressional committees with oversight and appropriation
   responsibility over the Department of Homeland Security. We will post the report on our
   website for public dissemination.

   Major contributors to this report are Humberto Melara, Director; Louis Ochoa, Audit Manager;
   Renee Gradin, Senior Auditor; Paul Sibal, Auditor; and Victor Du, Auditor.

   Please call me with any questions at (202) 254-4100, or your staff may contact
   Humberto Melara, Director, Western Regional Office, at (510) 637-1463.




www.oig.dhs.gov                                 5                                     OIG-14-24-D
                                    OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security
                                                                                                         Exhibit

                            Schedule of Projects Audited and Questioned Costs

                            FEMA                                      Project Charges
         Project          Category of        Project Award              Claimed &              Questioned
         Number              Work               Amount                   Reviewed                Costs
                                            Second and Final Review
            2223                A                   $220,321                    $220,022
            2739                B                     89,695                      89,695
            3499                E                         335,250                333,434
           36274                E                         123,431                315,958               $2,416
          3693    5             B                        5,351                     8,192
           3739                 B                      464,185                   464,185               23,684
        Subtotal                                    $1,238,233                $1,431,486              $26,100
                                             Interim Report Results
            3625                E                    $830,672                 $1,599,777             Resolved
           Total                                   $2,068,905                 $3,031,263              $26,100




   4
     FEMA initially approved Project 3627 for $310,617 (gross amount), and the Town received $192,526 in insurance
   proceeds. However, the Town incurred actual costs of $315,958. FEMA adjusted the award amount to match the
   Town’s actual cost and subsequently reduced the final award amount to $123,431 (net amount) to account for
   the Town’s insurance proceeds.
   5
     Project 3693 is a small project.

www.oig.dhs.gov                                       6                                          OIG-14-24-D
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security
                                                                                       Appendix


                                         Report Distribution

   Department of Homeland Security
   Secretary
   Chief Financial Officer
   Under Secretary for Management
   Audit Liaison
   Chief Privacy Officer

   Federal Emergency Management Agency
   Administrator
   Chief of Staff
   Chief Financial Officer
   Chief Counsel
   Director, Risk Management and Compliance
   Chief Procurement Officer
   Audit Liaison (Job Code G-13-015)
   Director, Recovery Division, Region IX
   Deputy Director, Recovery Division, Region IX
   Audit Liaison, Region IX
   Audit Follow-up Coordinator

   Grantee (California Governor’s Office of Emergency Services)
   Director
   Executive Assistant to the Director
   Chief of Staff
   Audit Liaison

   State (California)
   California State Auditor, Bureau of State Audits

   Subgrantee (Town of San Anselmo, California)
   Town Manager

   Recovery Accountability and Transparency Board
   Director, Investigations, Recovery Accountability and Transparency Board

   Congressional Oversight and Appropriations Committees, as appropriate, including:
   Senate Committee on Appropriations, Subcommittee on Homeland Security
   Senate Committee on Homeland Security and Governmental Affairs
   House Committee on Appropriations, Subcommittee on Homeland Security
www.oig.dhs.gov                                7                               OIG-14-24-D
                            OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


   House Committee on Homeland Security
   House Committee on Oversight and Government Reform

   Office of Management and Budget
   Chief, Homeland Security Branch
   DHS OIG Budget Examiner




www.oig.dhs.gov                          8                       OIG-14-24-D
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
